TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                         Office of Inspections and Evaluations




                                     RECOVERY ACT

                Review of the Internal Revenue Service’s
                American Recovery and Reinvestment Act
                 Fund Expenditures for Fiscal Year 2012



                                      October 18, 2013

                          Reference Number: 2014-IE-R001




      This report has cleared the Treasury Inspector General for Tax Administration disclosure
        review process and information determined to be restricted from public release has
                                 been redacted from this document.



Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.treasury.gov/tigta
                                        DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   October 18, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Inspection Report – Review of the Internal Revenue Service’s
                                 American Recovery and Reinvestment Act Fund Expenditures for
                                 Fiscal Year 2012 (IE-13-006-A)


 This report presents the results of our inspection to verify the accuracy, timeliness, and reporting
 of the payment of invoices by the Internal Revenue Service (IRS) for American Recovery and
 Reinvestment Act of 20091 (Recovery Act) expenditures. Our inspection included invoices paid
 during the period October 1, 2011, through September 30, 2012. This is the fifth in a series of
 inspections regarding compliance with the Office of Management and Budget (OMB) guidance
 for implementation of the Recovery Act.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS Recovery
 Act programs. This inspection was conducted using Recovery Act funds.

 Synopsis
 Our inspection showed that the IRS was in compliance with the OMB’s Recovery Act
 implementation guidance for Recovery Act expenditures from October 1, 2011, through
 September 30, 2012. The IRS generally executed adequate internal controls to ensure timely and
 accurate reporting.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                          Review of the Internal Revenue Service’s
                          American Recovery and Reinvestment Act
                           Fund Expenditures for Fiscal Year 2012



During the period of our inspection, the IRS paid approximately $212,0002 to seven vendors for
Recovery Act expenses, including an interest fee in excess of $3,1003 for one invoice. Discounts
were offered for the prompt payment of invoices, and the IRS obtained approximately $2,400 of
the approximately $4,3004 available. The IRS is not required to obtain all discounts offered by
vendors. Due to the limited scope of our inspection, we did not review the IRS’s ability or
inability to obtain the offered discounts.

Response
IRS management agreed to the observations in the draft report. See Appendix IV for their
complete response.
If you have any questions, please contact me at (202) 927-7048 or Kevin P. Riley, Director,
Office of Inspections and Evaluations, at (972) 249-8355.




2
  The exact amount of payment for these invoices was $212,412.24.
3
  The exact amount of the interest fee was $3,186.37.
4
  The exact amount of available discounts was $4,289.28. The IRS took $2,411.57 (56.2 percent) of the available
discounts.
                                                                                                          Page 2
                               Review of the Internal Revenue Service’s
                               American Recovery and Reinvestment Act
                                Fund Expenditures for Fiscal Year 2012




                                             Table of Contents

Background ........................................................................................................... .Page 1

Results of Inspection ........................................................................................... Page 3
          Recovery Act Expenditures Were Reported Accurately and Timely ............. Page 3
          The Internal Revenue Service Did Not Take All Available Discounts .......... Page 3
          Financial Reports Complied With the Office of Management and
          Budget’s Implementing Guidance and Recovery Act Requirements ............. Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................... Page 4
          Appendix II – Major Contributors to This Report .......................................... Page 6
          Appendix III – Report Distribution List ......................................................... Page 7
          Appendix IV – Management’s Response to the Draft Report ........................ Page 8
      Review of the Internal Revenue Service’s
      American Recovery and Reinvestment Act
       Fund Expenditures for Fiscal Year 2012




                 Abbreviations

IRS        Internal Revenue Service
OMB        Office of Management and Budget
                          Review of the Internal Revenue Service’s
                          American Recovery and Reinvestment Act
                           Fund Expenditures for Fiscal Year 2012




                                            Background

This is the fifth in a series of inspections regarding compliance with the Office of Management
and Budget (OMB) guidance for implementation of the American Recovery and Reinvestment
Act of 20091 (Recovery Act). Enacted on February 17, 2009, this legislation allocated
$787 billion over 10 years in order to stimulate the national economy. The Recovery Act
contains both spending and tax provisions.
The Internal Revenue Service (IRS) is responsible for administering more than 502 tax law
provisions contained in the Recovery Act. In April 2009, the IRS received $202 million of its
appropriation of Recovery Act funds.3 These funds were required to implement the necessary
tax changes resulting from provisions of the Recovery Act. The changes included
reprogramming the IRS computer systems, updating related tax forms and publications, and
providing customer service to assist taxpayers in obtaining their Recovery Act benefits. As of
September 30, 2012, the IRS had obligated more than $200 million,4 with disbursements
exceeding $198 million.
One of the stated goals of the Recovery Act is to “foster unprecedented levels of accountability
and transparency in government spending.” The Recovery Accountability and Transparency
Board (Recovery Board)5 provides transparency to the public concerning Recovery Act funds.
One way the Recovery Board accomplishes this goal is by publishing Federal agencies’ use of
Recovery funds weekly.
The OMB6 issued guidance documents7 that outlined steps for implementing the Recovery Act
and clarified the requirements for processing procurements. Federal agencies are required to

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  This number could be as high as 56, depending on how the law is interpreted.
3
  This included $80 million for Fiscal Years 2009 and 2010 to implement the Health Coverage Tax Credit program.
The IRS also received $123 million for supporting tax provision changes in the Recovery Act. The Department of
the Treasury retained $1 million for administrative oversight, resulting in the IRS receiving $202 million.
4
  From October 1, 2011, through September 30, 2012, the IRS deobligated $941,685 in Recovery Act funds.
5
  The Recovery Board was created by the Recovery Act with two goals: to provide transparency of Recovery Act
funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal
agencies serve with the Chairman. The Recovery Board issues quarterly and annual reports to the President and
Congress and, if necessary, “flash reports” on matters that require immediate attention.
6
  The OMB has primary responsibility for developing Governmentwide rules and procedures to ensure that
Recovery Act funds are awarded and distributed in a prompt and fair manner, that use of funds is transparent to the
public, and that steps are taken to mitigate fraud, waste, and abuse.
7
  OMB, M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(Feb. 18, 2009); M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act of 2009
(April 3, 2009); and M-10-34, Updated Guidance on the American Recovery and Reinvestment Act (Sept. 24, 2010).
                                                                                                           Page 1
                           Review of the Internal Revenue Service’s
                           American Recovery and Reinvestment Act
                            Fund Expenditures for Fiscal Year 2012



report to the Recovery Board, on a weekly basis, all cumulative Recovery Act obligations and
gross outlays (expenditures)8 in a standard reporting format. They must use separate Treasury
Appropriation Fund Symbols9 to track and report Recovery Act obligations and disbursements.
In performing this review during the period June through August 2013, we obtained relevant data
and information from personnel at the IRS National Headquarters in Washington, D.C., and the
Beckley Finance Center in Beckley, West Virginia. The review included Recovery Act invoices
submitted to the IRS by vendors for payment during the period October 1, 2011, through
September 30, 2012.
This inspection was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on the
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




8
  Total obligations equal the sum of financial commitments and expenditures. Total outlays consist of expenditures
only.
9
  The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
                                                                                                              Page 2
                          Review of the Internal Revenue Service’s
                          American Recovery and Reinvestment Act
                           Fund Expenditures for Fiscal Year 2012




                                  Results of Inspection

Recovery Act Expenditures Were Reported Accurately and Timely
The IRS generally executed adequate internal controls to ensure timely and accurate reporting
for the Recovery Act expenditures during the review period. The IRS has adequate, documented
operating procedures for ensuring that Recovery Act procedures are properly and timely
reported.

The Internal Revenue Service Did Not Take All Available Discounts
The IRS obtained approximately $2,40010 (56.2 percent) of the approximately $4,30011 in total
discounts offered by vendors. However, the IRS paid an interest fee of approximately $3,20012
on one invoice. We were informed by IRS Beckley Finance Center staff that the interest paid
was due mainly to a delay in the receipt and acceptance phase of the procurement, which took
from October 24, 2011, (when the invoice was received) until January 12, 2012.
Even though the Prompt Payment Act13 does not require that Federal agencies take all available
discounts that are offered, taking the discounts provides the IRS with the opportunity to make
better use of its funds. Due to the limited scope of our inspection, we did not review the IRS’s
ability or inability to obtain the offered discounts.

Financial Reports Complied With the Office of Management and
Budget’s Implementing Guidance and Recovery Act Requirements
The IRS was in general compliance with OMB’s guidance and Recovery Act requirements by:
        Submitting all 52 weekly reports of its cumulative Recovery Act obligations and gross
         outlays in the prescribed format;
        Using separate Treasury Appropriation Fund Symbols for its two Recovery Act funds;
         and
        Ensuring that Recovery Act expenditures were timely forwarded to the Department of the
         Treasury for posting to Recovery.gov.

10
   The exact amount of the discounts taken was $2,411.57.
11
   The exact amount of available discounts was $4,289.28.
12
   The exact amount of the interest fee was $3,186.37, paid to Verizon Business Network Services.
13
   Pub. L. No. 97-177, 96 Stat. 85 (1982) (codified as amended at 31 U.S.C. § 3901 et seq.).
                                                                                                    Page 3
                          Review of the Internal Revenue Service’s
                          American Recovery and Reinvestment Act
                           Fund Expenditures for Fiscal Year 2012



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to verify the accuracy, timeliness, and reporting of the
payment of invoices for the IRS’s Recovery Act1 procurement expenses for the period
October 1, 2011, through September 30, 2012 (Fiscal Year 2012).
To accomplish this objective, we:
I.      Documented procedures used to identify, record, and report Recovery Act expenditures,
        including internal controls.
        A. Interviewed personnel in the Budget Execution Office in the IRS’s National
           Headquarters to identify the reporting process.
        B. Interviewed personnel in the Beckley Finance Center in Beckley, West Virginia, to
           identify and document the invoice payment process.
        C. Reviewed the Financial and Activity Reports posted on Recovery.gov for the period
           under inspection.
II.     Determined whether Recovery Act procurement expenditures that the IRS reported were
        accurate and substantiated by complete and reliable supporting documentation.
        A. Identified all Recovery Act expenditures for the period October 1, 2011, through
           September 30, 2012. We reviewed all seven Recovery Act invoices that the IRS paid
           during the period.
        B. Traced Recovery Act procurement expenditures to available supporting
           documentation, including invoices, receiving reports, and check payment records.
        C. Verified the mathematical accuracy of expenditures and supporting documentation.
        D. Compared Recovery Act expenditures from the Weekly Financial Report on
           Recovery.gov to the amounts the IRS recorded in the Integrated Financial System.2




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated funds
received by the IRS.
                                                                                                           Page 4
                           Review of the Internal Revenue Service’s
                           American Recovery and Reinvestment Act
                            Fund Expenditures for Fiscal Year 2012



         E. Determined if the IRS used separate Treasury Appropriation Fund Symbols3 for its
            two Recovery Act funds:
             1. Treasury Appropriation Fund Symbol 20-0129 2009/2011 for Administrative
                Expense – Recovery Act.
             2. Treasury Appropriation Fund Symbol 20-0934 2009/2011 for Health Insurance
                Tax Credit Administration – Recovery Act.
         F. Reconciled disbursements from the Integrated Finance System to the Total Gross
            Outlays in the Financial and Activity Report.
         G. Obtained Status of Available Funds Reports from the IRS.
         H. Reconciled the IRS Recovery Act weekly reports provided for the review period to
            the expenditures posted on Recovery.gov.
III.     Determined whether the IRS had established effective controls to identify, record, and
         report Recovery Act expenditures in accordance with OMB guidance.
         A. Obtained and reviewed all guidance issued by the OMB pertaining to procurement of
            goods and services using Recovery Act funds.
         B. Evaluated the procedures for recording Recovery Act obligations, outlays,
            disbursements, and payments made against these funds and reconciled the sum of the
            obligations, expenditures, and disbursements amounts from the Status of Available
            Funds Reports to the Total Obligations and Gross Outlays columns of the Financial
            and Activity Report.




3
  The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
                                                                                                              Page 5
                     Review of the Internal Revenue Service’s
                     American Recovery and Reinvestment Act
                      Fund Expenditures for Fiscal Year 2012



                                                                Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Evaluator
Mark Anderson, Program Analyst




                                                                      Page 6
                    Review of the Internal Revenue Service’s
                    American Recovery and Reinvestment Act
                     Fund Expenditures for Fiscal Year 2012



                                                                 Appendix III

                         Report Distribution List

Principal Deputy Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                        Page 7
       Review of the Internal Revenue Service’s
       American Recovery and Reinvestment Act
        Fund Expenditures for Fiscal Year 2012



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 8
